June 9, 2021
Via First-Class Mail
and Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First St., NE
Washington, D.C. 20543

Re:

Philip Palade et al. v. Board of Trustees of Univ. of Ark. et al.,
Supreme Court Case No. 20-1698

Dear Mr. Harris:
I represent the respondents in the above-captioned matter. I am writing to
request a 30-day extension of time to file a brief in opposition to the petition for
certiorari in this case. If our request is granted, I calculate August 9, 2021, as the
new deadline for our response. The extension is needed due to a recent death in the
family, summer travel plans, and the press of other business. The extension will
allow us to adequately respond to the arguments raised by the petitioners. Thank
you for considering this request.
Very truly yours,

David A. Curran
Associate General Counsel
Counsel of Record for Respondents
cc: Joseph W. Price, II
(counsel of record for petitioners)

